 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL

    OREGON GENERALLY CLAIMED
FEDERAL MEDICAID REIMBURSEMENT
  FOR MONEY FOLLOWS THE PERSON
      PROGRAM EXPENDITURES
 IN COMPLIANCE WITH FEDERAL AND
     STATE REQUIREMENTS BUT
    INTERNAL CONTROLS SHOULD
        BE STRENGTHENED

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General

                                                       November 2013
                                                       A-09-12-02049
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Oregon generally claimed Federal Medicaid reimbursement for Money Follows the
 Person program expenditures in compliance with Federal and State requirements.
 However, the State agency’s internal controls over claiming these expenditures should
 be strengthened.

WHY WE DID THIS REVIEW

The “Money Follows the Person” Rebalancing Demonstration (MFP) program helps States to
increase the use of home and community-based long-term care and eliminate barriers to enable
Medicaid-eligible individuals to receive long-term services in the setting of their choice. The
Oregon Department of Human Services (State agency), Office of Payment Accuracy and
Recovery (OPAR), Fraud Investigation Unit, investigated the program to look into allegations of
fraudulent practices and mismanagement of program funds. Subsequently, the Centers for
Medicare & Medicaid Services requested that we review the program.

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for MFP program expenditures in compliance with Federal and State
requirements.

BACKGROUND

The MFP program reimburses States at an enhanced Federal reimbursement rate for qualified
home and community-based services for a period of 12 months after an individual has
transitioned from an institution to a community setting. Supplemental services that are necessary
for such a transition are reimbursed at the State’s regular Federal reimbursement rate.
Administrative expenditures associated with running the MFP program are generally reimbursed
at the State’s administrative reimbursement rate.

In Oregon, the State agency administers the MFP program. When OPAR began its investigation
of the MFP program in September 2010, the State agency stopped enrolling new beneficiaries in
the program and initiated a review of its MFP expenditures. In October 2011, the State agency
stopped providing services to beneficiaries who had previously been transitioned into the
program and started claiming the related expenditures through other programs. As of the date of
this report, the State agency is in the process of restarting the MFP program.

From May 1, 2007, through December 31, 2011, the State agency claimed MFP program
expenditures of approximately $30.1 million ($21.5 million Federal share). Of these
expenditures, we judgmentally selected for review expenditures totaling $5,428,359, which
included expenditures for qualified and supplemental services and administration.

WHAT WE FOUND

The State agency generally claimed Federal Medicaid reimbursement for MFP program
expenditures in compliance with Federal and State requirements. However, the State agency and


Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                    i
we separately identified some program expenditures that were not claimed in compliance with
Federal requirements:

    •   After OPAR’s investigation and before our audit, the State agency reviewed its MFP
        program expenditures and identified $1,235,588 in expenditures that were not properly
        claimed or were not allowable under the program. In June 2012, the State agency
        adjusted and reclaimed $1,010,938 of these expenditures, decreasing the Federal share by
        $161,571. However, after our fieldwork, the State agency determined that the adjustment
        was not accurate and is revising the adjustment. For the remaining $224,650 in
        expenditures, the State agency did not make any adjustment because it was waiting for
        the conclusion of our audit.

    •   We found that the State agency claimed an additional $851,538 in expenditures that did
        not comply with Federal requirements (a net underclaim of $4,241 Federal share).
        Specifically, the State agency claimed unallowable expenditures and did not use the
        correct Federal reimbursement rates to claim other expenditures.

Considering that the State agency identified that it erroneously claimed expenditures of more
than $1.2 million, and nearly 16 percent of the $5.4 million in expenditures that we reviewed was
erroneously claimed, the State agency’s internal controls were not adequate to ensure that MFP
program expenditures were claimed in compliance with Federal requirements. Further, although
the net effect of improperly claimed and unallowable expenditures on the Federal share is
immaterial, the number of questionable expenditures erroneously claimed illustrates that the
State agency’s internal controls should be strengthened. Although the State agency has refunded
the Federal share of some expenditures that it identified as improperly claimed or unallowable, it
determined that the adjustment was not accurate. In addition, State agency officials indicated
that they have taken some steps to strengthen internal controls but have not yet implemented all
of those controls necessary to prevent the claiming of unallowable expenditures in the future.

WHAT WE RECOMMEND

We recommend that the State agency review the $1,235,588 in expenditures that it identified as
improperly claimed or unallowable and refund the Federal share of any questionable
expenditures. In addition, because the State agency is restarting the MFP program, we
recommend that the State agency (1) follow existing procedures to review contractor
expenditures before payment, (2) implement policies and procedures to identify and prevent
duplicate payments for MFP program expenditures, and (3) strengthen certain internal controls
over the MFP program. Our recommendations are included in their entirety in the body of the
report.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations.




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                   ii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Medicaid Program: Administration and Reimbursement ...................................1
                 Money Follows the Person Program ....................................................................1
                 Oregon’s Money Follows the Person Program ....................................................2
                 Investigative Actions Taken by the State Agency ...............................................3

           How We Conducted This Review....................................................................................3

FINDINGS ...................................................................................................................................3

           Federal Requirements ......................................................................................................4

           State Agency Found That Program Expenditures Were Not Properly Claimed
             or Were Unallowable ....................................................................................................4

           Additional Program Expenditures Did Not Comply With Federal Requirements ..........5
                  Duplicate Payments to a Remodeling Contractor and a Vendor .........................5
                  Expenditures for an Ineligible Beneficiary ..........................................................6
                  Salaries and Fringe Benefits of Employees Who Did Not Work
                   for the Money Follows the Person Program .....................................................6
                  Payments to an Adult Foster-Care Home To Hold Beds .....................................6
                  Expenditures Claimed at Incorrect Federal Reimbursement Rates .....................6

CONCLUSION ............................................................................................................................7

RECOMMENDATIONS .............................................................................................................7

STATE AGENCY COMMENTS ................................................................................................8

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................9
           B: State Agency Comments ............................................................................................11




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                                                                     iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The “Money Follows the Person” Rebalancing Demonstration (MFP) program helps States to
increase the use of home and community-based long-term care and eliminate barriers to enable
Medicaid-eligible individuals to receive long-term services in the setting of their choice. The
Oregon Department of Human Services (State agency), Office of Payment Accuracy and
Recovery (OPAR), Fraud Investigation Unit, investigated the program to look into allegations of
fraudulent practices and mismanagement of program funds. Subsequently, the Centers for
Medicare & Medicaid Services (CMS) requested that we review the program.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for MFP program expenditures in compliance with Federal and State
requirements.

BACKGROUND

Medicaid Program: Administration and Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. The Federal Government pays its share of a State’s medical
assistance expenditures under Medicaid according to the Federal medical assistance percentage
(Federal reimbursement rate), which varies depending on the State’s relative per capita income
(§ 1905(b) of the Social Security Act).

Money Follows the Person Program

The Deficit Reduction Act of 2005 (DRA), as amended by P.L. No. 111-148, authorized the
MFP grant program to increase the use of home and community-based long-term care and
eliminate barriers that prevent or restrict the flexible use of Medicaid funds to enable
Medicaid-eligible individuals to receive long-term services in the setting of their choice. In
addition, the program provides State Medicaid programs the increased ability to offer continuous
home and community-based long-term-care services to individuals who choose to transition from
an institution to a community setting and quality assurance for eligible individuals receiving such
services (DRA, § 6071(a)).




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                    1
To be eligible for the MFP program, a beneficiary must reside in an inpatient facility, receive
Medicaid benefits for inpatient services furnished by that facility, and transition to a qualified
residence (DRA, § 6071(b)(2)). 1, 2

The MFP program provides States with Federal reimbursement for expenditures related to
qualified home and community-based services, optional supplemental services, and
administration:

    •    Qualified Services. The MFP program reimburses States at an enhanced Federal
         reimbursement rate for 12 months of qualified home and community-based services for
         each individual who has transitioned from an institution to the community. 3 Qualified
         services include rehabilitative, home health, and personal care services.

    •    Supplemental Services. The State has the option of providing supplemental services
         that are necessary to transition an individual from an institution to the community. The
         costs associated with these services are one-time costs reimbursed at the State’s regular
         Federal reimbursement rate. Supplemental services include home modifications,
         nutrition services, and substance abuse services.

    •    Administration. Administrative expenditures associated with running the MFP program
         that were incurred through vouchers, payroll, and cost allocations are generally
         reimbursed at the State’s administrative reimbursement rate.

Oregon’s Money Follows the Person Program

In Oregon, the State agency administers the MFP program, known as On the Move. From
May 2007 through September 2011, the State agency transitioned 305 clients from institutions to
home and community-based settings. During our audit period (May 1, 2007, through
December 31, 2011), the State agency’s enhanced Federal reimbursement rate for qualified
services ranged from 80.43 percent to 86.49 percent. The regular reimbursement rate for
supplemental services ranged from 60.86 percent to 72.97 percent. The reimbursement rate for
the State agency’s administrative expenditures ranged from 50 percent to 100 percent.




1
  The DRA defines an inpatient facility as a hospital, a nursing facility, or an intermediate-care facility for
individuals with intellectual disabilities. A qualified residence is defined as a home owned or leased by the
individual or the individual’s family member, an apartment with an individual lease, or a residence in a community-
based residential setting where no more than four unrelated individuals reside (DRA, §§ 6071(b)(3) and 6071(b)(6)).
2
  The Patient Protection and Affordable Care Act amended the requirement that an individual must reside in an
inpatient facility for a period of no less than 6 months and no more than 2 years to a period of no less than 90
consecutive days before transition (P.L. No. 111-148, § 2403(b)(1)(A)).
3
  The MFP enhanced Federal reimbursement rate is based on a calculation using the State’s regular Federal
reimbursement rate and should not exceed 90 percent (DRA, § 6071(e)(5)).


Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                                     2
Investigative Actions Taken by the State Agency

In September 2010, OPAR’s Fraud Investigation Unit began a review of the MFP program to
investigate allegations of potentially fraudulent practices and mismanagement of program funds.
At the same time, the State agency stopped enrolling new beneficiaries in the program and
initiated a review of its MFP expenditures. In October 2011, the State agency stopped providing
services to beneficiaries who had previously been transitioned into the MFP program and started
claiming the related expenditures through other programs. As of the date of this report, the State
agency is in the process of restarting the program.

HOW WE CONDUCTED THIS REVIEW

From May 1, 2007, through December 31, 2011, the State agency claimed MFP program
expenditures of approximately $30.1 million ($21.5 million Federal share). Of these
expenditures, we judgmentally selected for review expenditures totaling $5,428,359, which
included expenditures for qualified and supplemental services and administration. We also
verified the eligibility of 33 judgmentally selected beneficiaries.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                              FINDINGS

The State agency generally claimed Federal Medicaid reimbursement for MFP program
expenditures in compliance with Federal and State requirements. However, the State agency and
we separately identified some program expenditures that were not claimed in compliance with
Federal requirements:

    •   After OPAR’s investigation and before our audit, the State agency reviewed its MFP
        program expenditures and identified $1,235,588 in expenditures that were not properly
        claimed or were not allowable under the program. In June 2012, the State agency
        adjusted and reclaimed $1,010,938 of these expenditures, decreasing the Federal share by
        $161,571. However, after our fieldwork, the State agency determined that the adjustment
        was not accurate and is revising the adjustment. For the remaining $224,650 in
        expenditures, the State agency did not make any adjustment because it was waiting for
        the conclusion of our audit.

    •   We found that the State agency claimed an additional $851,538 in expenditures that did
        not comply with Federal requirements (a net underclaim of $4,241 Federal share).
        Specifically, the State agency claimed unallowable expenditures and did not use the
        correct Federal reimbursement rates to claim other expenditures.



Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                   3
Considering that the State agency identified that it erroneously claimed expenditures of more
than $1.2 million, and nearly 16 percent of the $5.4 million in expenditures that we reviewed was
erroneously claimed, the State agency’s internal controls were not adequate to ensure that MFP
program expenditures were claimed in compliance with Federal requirements.

FEDERAL REQUIREMENTS

The DRA specifies that a State’s MFP program expenditures are allowable but only for home
and community-based long-term-care services provided during the 12-month period beginning
on the date the individual is discharged from an inpatient facility (DRA, § 6071(b)(7)).

Federal regulations state that to be allowable, costs must be necessary and reasonable for proper
and efficient performance and administration of Federal awards (2 CFR part 225, Appendix A,
paragraph C.1.a.). Additionally, a cost is allocable to a particular cost objective if the goods or
services involved are chargeable or assignable to such cost objective in accordance with relative
benefits received (2 CFR part 225, Appendix A, paragraph C.3.a.).

STATE AGENCY FOUND THAT PROGRAM EXPENDITURES WERE NOT
PROPERLY CLAIMED OR WERE UNALLOWABLE

After OPAR’s investigation and before our audit, the State agency reviewed its MFP program
expenditures and identified $1,235,588 in expenditures that were not properly claimed or were
not allowable under the MFP program. The supporting documentation that the State agency
provided to us showed that the $1,235,588 consisted of:

      •    qualified expenditures that were improperly claimed as supplemental expenditures,

      •    supplemental expenditures that were improperly claimed as qualified or administrative
           expenditures,

      •    administrative expenditures that were improperly claimed as qualified or supplemental
           expenditures,

      •    expenditures that were not eligible for reimbursement under the MFP program,

      •    expenditures that were not previously claimed for reimbursement under the MFP
           program, 4 and

      •    expenditures that were not tied to specific MFP beneficiaries who had received the
           services.

In June 2012, the State agency adjusted and reclaimed $1,010,938 of these expenditures,
refunding to the Federal Government an adjustment decreasing the Federal share by $161,571.
However, after our fieldwork, the State agency determined that the adjustment was not accurate

4
    These expenditures were previously reimbursed with State funds only.


Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                        4
and is revising the adjustment. For the remaining $224,650 in expenditures, the State agency did
not make any adjustment because it was waiting for the conclusion of our audit.

ADDITIONAL PROGRAM EXPENDITURES DID NOT COMPLY WITH
FEDERAL REQUIREMENTS

During our review, we found that the State agency claimed $851,538 in MFP program
expenditures that did not comply with Federal requirements (a net underclaim of $4,241 Federal
share). Specifically, the State agency overclaimed $54,135 ($36,559 Federal share) and
underclaimed $797,403 ($40,800 Federal share). The $36,559 overclaim of Federal
reimbursement consisted of:

    •   $18,417 for duplicate payments to a remodeling contractor and a vendor,

    •   $7,685 for expenditures related to one beneficiary who was no longer eligible to have his
        expenses paid for by the MFP program,

    •   $5,885 for salaries and fringe benefits of two employees who did not work for the MFP
        program, and

    •   $4,572 for payments to an adult foster-care home to hold beds without first identifying
        MFP beneficiaries to fill the beds and subsequently ensuring that those beds were
        occupied by MFP beneficiaries.

The State agency underclaimed Federal reimbursement of $40,800 because it claimed some
expenditures at the incorrect Federal reimbursement rates.

Duplicate Payments to a Remodeling Contractor and a Vendor

The State agency overclaimed Federal reimbursement of $18,417 for duplicate payments made
to a remodeling contractor and a vendor:

    •   The State agency overclaimed Federal reimbursement of $17,526 for a duplicate payment
        to a remodeling contractor for renovations at an adult foster home. The State agency paid
        the contractor twice for the same invoice on two different dates. The duplicate payment
        occurred because the State agency did not follow its procedures requiring the contracting
        department to review and approve contractor expenditures before payment and the State
        agency did not have policies and procedures to identify or prevent duplicate payments.

    •   The State agency overclaimed Federal reimbursement of $891 for a duplicate payment to
        a vendor for the purchase and installation of bathroom fixtures. The State agency paid
        the vendor on the basis of the purchase invoice as well as the purchase order for the
        installation project. The duplicate payment occurred because the State agency did not
        have policies and procedures to identify or prevent duplicate payments.




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                    5
Expenditures for an Ineligible Beneficiary

The State agency overclaimed Federal reimbursement of $7,685 for services provided to a
beneficiary who was no longer eligible to have his expenditures paid for by the MFP program.
The MFP program paid the beneficiary’s expenses because a program caseworker did not
properly adjust the beneficiary’s period of eligibility in the State agency’s long-term-care client
assessment and planning system after the caseworker had performed and documented a
reassessment of the services needed by the beneficiary.

A beneficiary transitioning into the community through the MFP program is eligible to have his
or her expenses paid for by the program for a period of 12 months from the date of transition. 5
When a caseworker documents a reassessment in the State agency’s long-term-care client
assessment and planning system, the beneficiary’s transition date is automatically adjusted to the
current date, causing the beneficiary’s period of eligibility to extend beyond the allowable
12 months. According to an MFP program official, a caseworker is required to manually adjust
the beneficiary’s transition date to reflect the original date of transition. For one beneficiary, the
caseworker did not adjust the date of transition to the original date. As a result, the State agency
paid for services through the MFP program 2 months beyond the beneficiary’s 12-month period
of eligibility.

Salaries and Fringe Benefits of Employees Who Did Not Work for the Money Follows the
Person Program

The State agency overclaimed Federal reimbursement of $5,885 for salaries and fringe benefits
of two employees who did not work for the MFP program. The employees erroneously reported
on their timesheets that they had worked for the MFP program. Their supervisor reviewed the
timesheets but did not identify the errors and submitted the timesheets to the State agency’s
payroll system for processing.

Payments to an Adult Foster-Care Home To Hold Beds

The State agency overclaimed Federal reimbursement of $4,572 for two payments to an adult
foster-care home to hold beds without first identifying MFP beneficiaries to fill the beds and
subsequently ensuring that those beds were occupied by MFP beneficiaries. Payments to home
care providers to hold beds not associated with MFP beneficiaries are not reasonable or
necessary; therefore, those payments are not allowable for Federal reimbursement.

Expenditures Claimed at Incorrect Federal Reimbursement Rates

The State agency underclaimed a net amount of $40,800 in Federal reimbursement because it
claimed some MFP program expenditures at the incorrect Federal reimbursement rates:




5
    The transition date is the day that a beneficiary is discharged from an inpatient facility.



Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                        6
    •   The State agency overclaimed Federal reimbursement of $3,870 for expenditures
        incurred from July through December 2011. 6 The State agency applied a higher Federal
        reimbursement rate of 68.25 percent during this period although the actual reimbursement
        rates were lower (62.85 percent from July through September 2011 and 62.91 percent
        from October through December 2011).

    •   The State agency underclaimed Federal reimbursement of $44,670 for expenditures
        incurred from January 2009 through October 2010. The State agency claimed the
        expenditures at lower reimbursement rates than the rates in effect at the time the
        expenditures were claimed.

The State agency claimed the expenditures at the incorrect Federal reimbursement rates because
it did not update the rates in its accounting system in a timely manner.

                                               CONCLUSION

Considering that the State agency identified that it erroneously claimed expenditures of more
than $1.2 million, and nearly 16 percent of the $5.4 million in expenditures that we reviewed was
erroneously claimed, the State agency’s internal controls were not adequate to ensure that MFP
program expenditures were claimed in compliance with Federal requirements. Further, although
the net effect of improperly claimed and unallowable expenditures on the Federal share is
immaterial, the number of questionable expenditures erroneously claimed illustrates that the
State agency’s internal controls should be strengthened. Although the State agency has refunded
the Federal share of some expenditures that it identified as improperly claimed or unallowable, it
determined that the adjustment was not accurate. In addition, State agency officials indicated
that they have taken some steps to strengthen internal controls but have not yet implemented all
of those controls necessary to prevent the claiming of unallowable expenditures in the future.

                                          RECOMMENDATIONS

We recommend that the State agency review the $1,235,588 in expenditures that it identified as
improperly claimed or unallowable and refund the Federal share of any questionable
expenditures. In addition, because the State agency is restarting the MFP program, we
recommend that the State agency:

    •   follow existing procedures to review contractor expenditures before payment;

    •   implement policies and procedures to identify and prevent duplicate payments for MFP
        program expenditures; and




6
 As a result of our review, the State agency submitted an adjustment for the $3,870 on the Federal Financial Report
for the MFP program for the period ended December 31, 2012.


Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                                    7
    •   strengthen its internal controls to ensure that:

            o payments are not made on behalf of beneficiaries who are no longer eligible for
              the MFP program,

            o only MFP employee salaries and fringe benefits are claimed through the MFP
              program,

            o unallowable payments are not made to hold beds unless MFP beneficiaries are
              identified and subsequently occupy those beds,

            o Federal reimbursement rates are updated in its accounting system in a timely
              manner, and

            o allowable MFP program expenditures are claimed at the correct Federal
              reimbursement rates.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations. The State agency’s comments are included in their entirety as Appendix B.




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                  8
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From May 1, 2007, through December 31, 2011, the State agency claimed MFP program
expenditures of $30,145,970 ($21,479,864 Federal share). Of these expenditures, we
judgmentally selected for review expenditures totaling $5,428,359, which included expenditures
for qualified and supplemental services and administration. We reviewed expenditures for
qualified and supplemental services related to 33 MFP beneficiaries; administrative expenditures
incurred through vouchers, payroll, and cost allocations; and other expenditures that were
manually entered into the State agency’s financial accounting system. We also verified the
eligibility of the 33 beneficiaries for the MFP program.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We reviewed only those internal controls related to our objective. We limited our
review to determining whether the State agency claimed Federal Medicaid reimbursement for
MFP program expenditures in compliance with Federal and State requirements.

We conducted our audit from June 2012 to April 2013 and performed our fieldwork at the State
agency’s office in Salem, Oregon.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   reviewed State law and guidance and the Oregon MFP program Operational Protocol; 7

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to the State agency concerning the MFP program;

    •   held discussions with State agency officials to gain an understanding of the State
        agency’s policies and procedures for claiming Federal reimbursement for MFP
        expenditures;

    •   obtained an understanding of the State agency’s review of MFP expenditures and
        corresponding adjustments; and

    •   reviewed a judgmental sample of MFP expenditures totaling $5,428,359, consisting of:

                 o $3,356,167 in expenditures for qualified and supplemental services directly
                   related to 33 MFP beneficiaries;

7
 The Operational Protocol outlines the State agency’s operation and implementation of the MFP program and must
be approved by CMS before the State agency can claim enhanced Federal reimbursement for MFP expenditures.


Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                                   9
                o $1,055,215 in administrative expenditures that were incurred through
                  vouchers, payroll, and cost allocations; and

                o $1,016,977 in expenditures that were manually entered into the State agency’s
                  financial accounting system.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Oregon’s Expenditures for the Money Follows the Person Program (A-09-12-02049)                10
                           APPENDIX B: STATE AGENCY COMMENTS 





                      Dregon                                       Department of Human Services
                                                                           Office of the Director
                         John A. Kitzhaber, MD, Governor
                                                                         500 Summer St. NE, E- 15
                                                                          Salem, OR 97301 - 1097
                                                                            Voice : 503-945-5600
                                                                               Fax: 503-58 1-6 198
                October 24, 2013                                               TTY: 503-945-5896


                Ms. Lori A Ahlstrand
                Regional Inspector General for Audit Services
                Office of Audit Services, Region IX
                90 - 7u1 Street, Suite 3-650
                San Francisco, CA 97103

                Report Number: A-09-12-02049

                Dear Ms. Ahlstrand:

                Thank you for the opporttmity to respond to the US Department of Health and
                Human Services, Office of Inspector General, draft report entitled Oregon
                Generally Claimed Federal Medicaid Reimbursement for Money Follows the
                Person Program Expenditures in Compliance With Federal and State Requirements
                but Internal Controls Should Be Strengthened.

                Oregon ceased enrolling new individuals in Money Follows the Person (MFP)
                effective September 2010 and officially suspended :MFP in October 2011. As a
                result of identified concerns, Oregon launched an investigation through the Office
                of Payment Accuracy and Recovery (OPAR). This investigation began September
                2010 and was completed in March 2011. The Department also launched an internal
                review of the program and a systematic analysis of payments and controls. New
                protocols and procedures were completed and corrections were identified related to
                the grant. Oregon also conducted a larger review of internal controls across the
                fonner Seniors and People with Disabilities Division via the Office of Internal
                Audit and Consulting.

                Oregon is now in the process ofrestruting the MFP progrrun. Former MFP
                leadership has been replaced with a new :MFP Director and Deputy Director. At
                this time, no other staff is working directly with the program. DRS has decided to
                take a slow and deliberate approach towards reopening this program. This pace will




Oregon's Expenditures for the .Money Follows the Person Program (A-09-12-02049)                      11
                Ms. Lori A Ahlstrand
                October 24, 2013
                Page2


                allow us to adequately implement all of the necessary changes in our administration
                of this program, a fundamental step in rebuilding trust and confidence in the
                Department's ability to manage this complex program. We wiiJ not begin charging
                funds to MFP w1til leadershi p trom DHS and the O regon Health Authority have
                confidence that all necessary controls have been adequately in1plemented.

                Currently, Oregon is working closely with the Centers for Medicare and Medicaid
                Services (CMS) on a revised Operational Protocol. This protocol addresses intemal
                systems that address many of the reconunendations contained in this repOit.

                Response to Recommendations:

                State agency to review th e $1,235,588 in expenditures identified as improperly
                claimed or unallowable and refund the Federal share of any questionable
                expenditures

                      Oregon concurs with this recommendation.

                Oregon has reviewed expenditures identified as in1properly claimed and have
                processed $1,010,937 in corrections thus far. Oregon is finalizing the other
                corrections and will submit documentation to OIG upon completion.

                The program continues to take intemal steps to ensure all expenditures are reviewed
                to alleviate any improperly claimed or unallowable expenses. If any are identifi ed,
                adjustments will be detennined and reported as appropriate.


                Follow existing procedures to review contractor expenses before pay ment;

                      Oregon concurs with this recommendation.

                Contractors will not be paid until review of successful completion of work.

                Implement policies and procedures to iden tity and prevent duplicate payments
                for MFP program expenditures; and

                      Oregon concurs with this recommendation.




Oregon's Expenditures for the .Money Follows the Person Program (A-09-12-02049)                        12
                Ms. Lori A Ahlstrand
                October 24, 2013
                Page 3



                Oregon is committed to implementing policies and procedures to identify and
                prevent duplicate payments. The program has had ongoing meetings since Febmary
                2013 (at least 16 meetings have occurred) with accounting, financial, budget,
                reimbursement, and coding personnel to establish new systems and/or refine
                previous systems.

                Strengthen its internal contro ls to ensure that:

                Payments are not made on behalf of beneficiaries, wbo are no longer
                eligible for the MFP program,

                             Oregon concurs with this recommendation.

                Payment systems are being rev iewed and revised to prevent payments to ineli gible
                participants. System edits are being developed to prevent recurrence of this
                problem. Manual ovenides will be required for exceptional cases that appropriately
                exceed the 365 calendar day period.

                Only MFP employee sa laries and fringe benefits are claimed through the MFP
                program,

                             Oregon concurs with tbis recommendation.

                The program currently only has two employees. Internal controls will be
                implemented to assure only MFP employee salaries and benefits will be claimed
                within the MFP program. Program directors will review and approve quarterly
                financial reports to ensure only appropriate staff salaries and benefits are charged to
                the MFP program.

                Unallowable payments are not made to hold beds unless :MFP beneficiaries arc
                id entified and subsequently occupy those beds;

                             Oregon concurs with tbis recommendation.

                Oregon ceased the practice of paying for bed holds and will continue to prohibit
                payments in all programs in the future.




Oregon's Expenditures for the .Money Follows the Person Program (A-09-12-02049)                           13
                Ms. Lori A Ahlstrand
                October 24, 2013
                Page4



                Federal reimbursement rates are updated in its accounting system in a timely
                manner, and

                             Oregon concurs with this recommendation.

                1v1FP program directors will work with accoLmting staff to ensure federal
                reimbursement rates are accurate and updated on a timely basis. Program Directors
                will also monitor charged expenditures in accotmting reports for con·ect matching
                rates.

                A llowable MFP program expenditures are claimed at the correct Federal
                reimbursement rates.

                             Oregon concurs with this recommendation.

                Policies and procedures will be implemented to ensure that the correct federal
                reimbursement rate is used for the type of service (qualified/
                supplementaVadministrative) being claimed.

                Thank you for the opportl.mity to respond to your recommendations. Oregon is
                committed to implementing all of the recommendations contained in tlus report.
                Please feel free to contact me or the Department's Director for Aging and People
                with Disabilities, Mike McConnick, if you have any questions. Mr. McConnick
                may be reached at 503-945-6229 or rnike.r .mcconnick@state.or.us.

                Sincerely,

                /Erinn Kelley-Siel/

                Director

                EKS:pp

                cc: 	 Mike McConnick, APD
                      Dave Lyda, Audits




Oregon's Expenditures for the .Money Follows the Person Program (A-09-12-02049)                     14
